HEARING BEFORE THE U.S. HOUSE OF REPRESENTATIVES

        COMMITTEE ON GOVERNMENT REFORM




                      July 8, 2004

                    Washington, DC


                   Pamela J. Gardiner
                Acting Inspector General
    Treasury Inspector General for Tax Administration
Testimony of Pamela J. Gardiner, Acting Inspector General for Tax Administration Before

         the U.S. House of Representatives Committee on Government Reform

                                       July 8, 2004



Good morning Chairman Davis, ranking Member Waxman and distinguished Committee

Members. I appreciate the opportunity to appear before you today to discuss the

challenges and successes the Treasury Inspector General for Tax Administration, TIGTA,

has experienced with Telework. Much of the work we do at TIGTA, audits and

investigations of the IRS, lends itself to being done in a virtual environment. We believe

Telework increases productivity, enhances employee satisfaction, and saves American

taxpayers money.



As you may know, TIGTA has enjoyed tremendous success with Telework, and serves

as an example of best Telework practices for the Federal community. TIGTA was even

recognized for excellence in Telework by receiving the Commuter Connections Employer

Recognition Award for Telework in 2003. Currently 854 or 97 percent of our total 884

employees are eligible to Telework. Of these 854 eligible employees, 92 percent choose

to participate in the program.



TIGTA offers employees four levels of participation in our program. The participation

level dictates the number of days a week the individual will telework and the associated

costs TIGTA will pay. The four levels of participation are defined as:

       Full - which allows an employee to Telework 4 to 5 days per week;

                                                                                             1
        Expanded - which allows an employee to Telework 2 to 3 days per week;

        Limited - which allows an employee to Telework 1 day per week; or

        Episodic - which allows for situational or task-based Telework.



While Telework at TIGTA is very successful, we did experience challenges when first

developing the program. In fiscal year 2000, TIGTA was one of the first Federal agencies

to pilot and implement a Telework program. There was no model to follow so we

developed our own. We experienced difficulty in finding resources available to answer

questions, propose policy and identify appropriate training. Apart from the policy aspects,

a significant technical challenge was in the area of broadband service. While availability

has somewhat increased, it is still not available in all locations where TIGTA employees

live. Additionally, at the time of implementation, broadband technology was new to

TIGTA, and non-standardization of service posed added complexity. Finally, gaining

management buy-in to the program was a significant hurdle.



In addressing these challenges, TIGTA used the information from our pilot program,

private industry best practices, and conducted management training to address concerns.

We developed a comprehensive network of technical and human resources support that

shared organizational successes by communicating increases in productivity and work

quality. There are several factors we have identified that we think other agencies may

find helpful in developing their own programs.

We:

•     timed our program rollout in conjunction with a technology upgrade to minimize

      expenses;

                                                                                             2
•    provided all employees with laptops rather than desktop computers;

•    installed a Virtual Private Network (VPN) to ensure top notch security;

•    required the use of high-speed broadband technology for participants at the Full and

     Expanded participation levels to ensure productive data transmission;

•    structured a flexible Telework policy to meet the needs of the work environment;

•    provided training to all employees and managers before participation; and

•    provided employees on full time Telework with printers, and other key tools.



Our Atlanta office demonstrated a high level of successful participation in Telework,

which led us to the next phase of our program - hoteling. This concept entails

significantly reducing overall office space and the number of individually assigned

workstations. Individuals use software to reserve a workspace when they need to be in

the office. We anticipate rent savings of $100,000 in the first full year of operation.



TIGTA has incorporated Telework into our Continuity of Operations Plan (COOP), and it

is an integral part of our business resumption planning activities. By having the policies

and provisions in place, should activation of the COOP become necessary, TIGTA will be

able to maintain a steady workforce and quickly resume normal business operations

overseeing the IRS and protecting tax administration.



In closing, Telework is good for TIGTA because we believe we can get the job done

quicker and less costly. It’s good for our employees because we believe they can focus

on work and not their commute. And most importantly it’s good for taxpayers because

we believe Federal resources are at their optimal use.

                                                                                             3
